No. 19-603
In the

Supreme Court of the United States
__________________

MARK SILGUERO AND AMY WOLFE,
Petitioners,
v.
CSL PLASMA, INCORPORATED,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

__________________

BRIEF IN OPPOSITION
__________________
BRUCE J. DOUGLAS
Counsel of Record
OGLETREE, DEAKINS, NASH,
SMOAK & STEWART, P. C.
Capella Tower
225 South Sixth Street,
Suite 1800
Minneapolis, MN 55402
Telephone: 612.339.1818
Facsimile: 612.339.0061
bruce.douglas@ogletree.com
Counsel for Respondent
CSL Plasma, Incorporated
January 22, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Is a plasma collection center that provides no
service to the public, receives donations of human
plasma, and compensates donors for their time and
inconvenience during the process, a “service
establishment” akin to a laundromat, dry-cleaner,
bank, barber shop, beauty shop, shoe repair service,
funeral parlor, gas station, bank, or other
establishments listed in 42 U.S.C. § 12181(7)(F) of Title
III of the Americans with Disabilities Act?

ii
CORPORATE DISCLOSURE STATEMENT
CSL Plasma Inc. is a subsidiary of CSL Behring
LLC. CSL Behring LLC is a subsidiary of CSL Limited.
Shares of CSL Limited are traded on the Australian
Stock Exchange with no parent company. No other
publicly traded corporation owns, directly or indirectly,
ten percent (10%) or more of CSL Plasma Inc.’s stock.

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iv
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
A. The ADA Distinguishes Commercial
Facilities Like a Plasma Collection Center
from Places of Public Accommodation . . . . . . 2
B. Plasma Collection Centers are Commercial
Facilities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
C. A Plasma Collection Center Provides No
Service to the Public . . . . . . . . . . . . . . . . . . . . 5
D. The Fifth Circuit’s Decision is Correct . . . . . . 6
E. Reasons For Denying The Petition . . . . . . . . . 9
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

iv
TABLE OF AUTHORITIES
CASES
Encino Motorcars, LLC v. Navarro,
138 S. Ct. 1134 (2018). . . . . . . . . . . . . . . . . . . . . . 8
Henson v. Santander Consumer USA, Inc.,
137 S. Ct. 1718 (2017). . . . . . . . . . . . . . . . . . . . . . 8
Levorsen v. Octapharma Plasma, Inc.,
828 F.3d 1227 (10th Cir. 2016). . . . . . . . . . . . . 1, 6
Matheis v. CSL Plasma, Inc.,
936 F.3d 171 (3d Cir. 2019) . . . . . . . . . . . . . . . . . 1
Nat’l Ass’n of Mfrs. v. Dep’t of Def.,
138 S. Ct. 617 (2018). . . . . . . . . . . . . . . . . . . . . . . 8
Reiter v. Sonotone Corp.,
442 U.S. 330 (1979). . . . . . . . . . . . . . . . . . . . . . . . 8
Silguero v. CSL Plasma, Inc.,
907 F.3d 323 (5th Cir. 2018). . . . . . . . . . . 1, 7, 8, 9
STATUTES AND REGULATIONS
42 U.S.C. § 12181(2). . . . . . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 12181(7). . . . . . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 12181(7)(F) . . . . . . . . . . . . . . . 3, 4, 5, 6, 8
42 U.S.C. § 12182 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
42 U.S.C. § 12182(a). . . . . . . . . . . . . . . . . . . . . . . . . . 2
21 C.F.R. § 640.60 (2019) . . . . . . . . . . . . . . . . . . . . . . 4
21 C.F.R. § 640.71(a) (2019). . . . . . . . . . . . . . . . . . . . 4

v
RULE
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
OTHER AUTHORITY
Department of Justice Frequently Asked Questions
about Service Animals and the ADA
https://www.ada.gov/regs2010/service_animal_
qa.html (last visited January 20, 2020) . . . . . . . 10

1
STATEMENT OF THE CASE
The petition for certiorari should be denied. This
case involves a question of importance to a single
business entity and others like it in that narrow
industry, but it is not a question of national importance
or wide application. This case does not present a broad
challenge to the fundamental purpose of the ADA.
The issue is whether the antidiscrimination
provisions of Title III of the ADA applicable to a “place
of public accommodation” apply to a manufacturing
business that exists to collect raw material (blood
plasma) from eligible donors and provides no direct
service or product to the members of the public. CSL
Plasma compensates eligible donors for their time and
inconvenience during the plasmapheresis process. A
unanimous panel of the U.S. Court of Appeals for the
Fifth Circuit held correctly that a plasma collection
center is not a place of public accommodation and,
accordingly, not subject to the antidiscrimination
provisions of Title III of the ADA. Silguero v. CSL
Plasma, Inc., 907 F.3d 323 (5th Cir. 2018).
CSL Plasma acknowledges that three Courts of
Appeals have addressed this issue and that two other
courts of appeals have ruled that a plasma collection
center is a place of public accommodation. See Levorsen
v. Octapharma Plasma, Inc., 828 F.3d 1227 (10th Cir.
2016); Matheis v. CSL Plasma, Inc., 936 F.3d 171 (3d
Cir. 2019). This “circuit split” is of recent vintage, and
two of the cases involve CSL Plasma. In their effort to
bring this issue to this Court’s attention now petitioners
overstate the impact of the differing opinions of the
courts of appeals. The issue is not ripe for this Court’s

2
consideration, given its limited application, and should
be allowed to develop further in the lower courts.
ARGUMENT
A. The ADA Distinguishes Commercial
Facilities Like a Plasma Collection Center
from Places of Public Accommodation.
Two distinct types of establishments are described
in Title III of the ADA. First, the statute defines
“commercial facilities” as facilities “(A) that are
intended for nonresidential use; and (B) whose
operations will affect commerce.”1 Second, the statute
defines a “place of public accommodation.” These
definitions establish the path to applying the statute,
given the different level of regulation Title III imposes
on each type of establishment. Commercial facilities
are subject only to the barrier-elimination provisions of
Title III. Places of public accommodation are subject to
the antidiscrimination provisions of Title III. See 42
U.S.C. § 12182(a). While the definition of commercial
facilities is relatively straightforward, the definition of
a place of public accommodation is multifaceted and
complex and requires a fact-intensive examination of
the nature of the facility. 42 U.S.C. § 12181(7).
The sole statutory provision at issue in this case is
the seventh category, which defines a “service
establishment.” That section states:

1

42 U.S.C. § 12181(2). This section excludes certain facilities such
as railroad cars and facilities that are expressly exempted from
coverage under the Fair Housing Act of 1968. These exceptions are
not implicated in this case.

3
(7) Public accommodation
The following of this subchapter, if the
operations of such entities affect commerce—
****
(F) a laundromat, dry-cleaner, bank, barbershop,
beauty shop, travel service, shoe repair service,
funeral parlor, gas station, office of an
accountant or lawyer, pharmacy, insurance
office, professional office of a healthcare
provider, hospital, or other service
establishment;
42 U.S.C. § 12181(7)(F). Although the parties agree on
little else, they agree on this much: (A) no other section
or subpart of the statute could apply to a plasma
collection center, and (B) a plasma collection center is
not listed among the examples in this section.
A plasma collection center sells no products and
provides no service to donors or to the public. Instead,
donors provide a service to the plasma collection center
when they give their plasma to it for further
manufacturing into pharmaceuticals. A plasma
collection center is not a medical office or clinic and
provides no health service to donors. Donors have no
further claim to their plasma after they complete the
donation process, and they have no expectation the
plasma, which is likely to be aggregated with
thousands of other donations, will be used for
themselves, a friend or family member, or anyone they
may know personally.
A plasma collection center is unlike the illustrative
examples in section 12181(7)(F) as to form, function,

4
purpose, or operation. A plasma collection center exists
solely to collect human source plasma, a biological
product to be used in further manufacturing.2 With
CSL Plasma, virtually all the plasma it collects is sent
to its parent company to be manufactured into plasma
protein therapies, which are used to treat individuals
with rare diseases. This entire process is undertaken to
benefit CSL Plasma. Donors need not have their
plasma removed and given to a third party. Whether
donors come to CSL Plasma out of a sense of altruism
or for the modest compensation they receive, they
provide a service to the plasma collection center. In
every example in section 12181(7)(F), the service
establishment provides a service or sells a product to
the public.
B. Plasma Collection Centers are Commercial
Facilities.
A plasma collection center is a unique type of
business. It is the point of entry or gateway to a
specialized pharmaceutical manufacturing process
closely regulated in the United States by the Food and
Drug Administration (FDA) and its counterparts in
other countries. The FDA deems a plasma collection
center to be part of an integrated manufacturing
process. See 21 C.F.R. § 640.71(a) (2019). CSL Plasma
2

Regulations promulgated by the FDA provide the definition of
this term in the context of the manufacturing process. “The proper
name of the product shall be Source Plasma. The product is
defined as the fluid portion of human blood collected by
plasmapheresis and intended as source material for further
manufacturing use. The definition excludes single donor plasma
products intended for intravenous use.” 21 C.F.R. § 640.60 (2019).

5
seeks donations only from that subset of the public who
may be sufficiently healthy and willing to donate to
come to the center, where they are evaluated to
determine their suitability to donate, under FDA
regulations and guidelines. For their time and
inconvenience in undergoing the plasmapheresis
process, which can require up to several hours of their
time, donors receive modest compensation. All of this
is done solely to benefit CSL Plasma.
C. A Plasma Collection Center Provides No
Service to the Public.
The crux is whether a plasma collection center is an
“other service establishment,” within the catch-all term
that follows the examples set out in section
12181(7)(F). It is the only category in the definitions
that would allow the arguments petitioners make, but
their efforts to shoehorn a plasma collection center into
it strains the statutory language. Far from the plain
language reading petitioners now press in this Court,
the statute requires some analysis and interpretation
when one of the listed establishments is not involved.
Petitioners’ arguments that a plasma collection
center provides a service or some benefit to donors,
aside from the compensation they receive, are
untethered from the context of the Title III definition
of a “service establishment” and from the realities of
the purpose and operation of a plasma collection center.
For example, they analogize a plasma collection center
to a bank that pays interest to its depositors. But, the
depositors’ money is their property, and the bank
provides services such as safeguarding those funds,
which the depositors may withdraw upon demand or at

6
the end of a timed deposit. A plasma donor cannot
reclaim his plasma donation, which becomes the
property of the plasma collection center. Similarly,
petitioners argue that the specialized equipment
required to remove their plasma allows them to
“monetize” their plasma. That argument, however, is
akin to a landowner who discovers oil under his
property and in return receives royalty payments from
an oil company. The oil company is not converted from
a manufacturer into a service establishment.
D. The Fifth Circuit’s Decision is Correct.
A panel of the Fifth Circuit, comprised of judges
Carolyn Dineen King, Jennifer Walker Elrod, and
Catharina Haynes, ruled that a plasma collection
center did not fit the definition of a service
establishment under section 12181(7)(F) and was not
a place of public accommodation subject to section
12182. This decision is correct.
The court of appeals began with the language of the
statute. Noting that section 12181(7)(F) does not list a
plasma collection center, and neither party contended
otherwise, the court focused on the term “other service
establishment.” 907 F.3d 328. The court of appeals
synthesized dictionary definitions of the words
“service” and “establishment” and concluded that
service establishment “is an establishment that
performs some act or work for an individual who
benefits from the act or work.” Id. Proceeding further
with its analysis, and declining to follow the reasoning
of the Tenth Circuit in Levorsen, the court of appeals
considered this definition in its application to plasma
collection centers:

7
Three textual clues lead us to that result. First,
the word “service” implies that the customer is
benefited by the act and no such benefit occurs
here. Second, the list preceding the catchall term
“other service establishment” does not include
any establishments that provide a “service”
without a detectable benefit to the customer.
Finally, third, the structure of the ADA indicates
that in establishment typically does not pay a
customer for a “service” it provides.
Silguero, 907 F.3d at 329.
The Fifth Circuit addressed each point petitioners
press in this Court. First, donors receive no obvious
benefit from undergoing plasmapheresis. Nothing in
the record supports petitioners’ contention that CSL
Plasma confers a benefit on them or that removing
plasma from their bodies is medically necessary or even
desirable. Donors receive modest compensation for
their time and inconvenience, but that payment “is
wholly collateral to the act of plasma collection. Thus,
as plasma collection occurs in this case, the individual
performs a service for the establishment, not the other
way around.” Silguero, 907 F.3d at 329.
Petitioners claim the Fifth Circuit’s use of two longestablished and oft-applied canons of statutory
construction, ejusdem generis and noscitur a sociis
cannot be used here to determine Congress’s intent
because the ADA is a remedial statute and is to be
liberally construed. But, where, as here, the statute
sets out a definition by way of a list of examples of
service establishments followed by a general term like
“other service establishment,” the legislature is telling

8
us two things. First, the listing is not exhaustive;
second, the other service establishments not
specifically listed should be of the same genus as those
in the preceding list. An unlisted “other service
establishment” should be similar to the listed service
establishments. As the Fifth Circuit explained, “[I]f
Congress wanted to cover all ‘establishments’ it could
have done so, omitting the word ‘service.’ So a ‘liberal’
reading cannot be one which reads out one of the
words. Thus, applying ejusdem generis helps us ensure
we honor Congress’s legislative choices.” Silguero, 907
F.3d at 329; see also Encino Motorcars, LLC v.
Navarro, 138 S. Ct. 1134, 1142 (2018); Henson v.
Santander Consumer USA, Inc., 137 S. Ct. 1718, 1725
(2017). Petitioners’ reading of the statute would render
other provisions of the same section superfluous. This
Court has consistently ruled that all parts and words
of a statute enacted by Congress should be given effect.
Nat’l Ass’n of Mfrs. v. Dep’t of Def., 138 S. Ct. 617, 632
(2018) (“As this Court has noted time and time again,
the Court is ‘obliged to give effect, if possible, to every
word Congress used.’” Reiter v. Sonotone Corp., 442
U.S. 330, 339 (1979). The court of appeals was correct
to employ these canons of construction in its reading of
section 12181(7)(F).
Last, although petitioners make much of the
direction-of-payment discussion in the cases, it was a
minor point in the Fifth Circuit’s analysis, albeit a
valid one: in our society the person to whom or on
whose behalf the services are rendered pays for that
service. The Fifth Circuit’s treatment of the issue is on
point: “[w]e do not hold that payment from a customer
to the establishment is necessary to be considered a

9
‘service establishment’ or that a ‘service’ is never
performed when establishment compensates an
individual. We conclude merely that payment – to or by
the establishment – is highly relevant in determining
whether an establishment provides a ‘service’ to a
customer and is therefore a ‘service establishment.’”
Silguero, 907 F.3d at 331-32.
E. Reasons For Denying The Petition
This case involves the application of the
antidiscrimination provisions of ADA Title III to a
single industry, plasma collection. That industry is
unique, and applying the definition of “place of public
accommodation” is fact-bound. Here, the Fifth Circuit
correctly held that CSL Plasma’s centers are not places
of public accommodation based on the record evidence.
The court of appeals properly construed and applied
ADA Title III.
This case is not the ideal vehicle for review of this
question because the petitioners present situations
involving differing reasons why they were not accepted
as donors that could cause a decision against them
even if CSL Plasma’s centers were a place of public
accommodation. Silguero was deferred permanently
based on his threatening behavior toward a member of
the center’s staff, not because of his disability. Wolfe
has not clearly established that her dog is a “service
animal” rather than a comfort animal. Department of
Justice regulations and guidance distinguish the types

10
of animals and state that the need for a comfort animal
does not have to be accommodated.3
Petitioners urge this Court to grant certiorari
because of the differing conclusions reached by the
Tenth and Third Circuits. This argument is not as
compelling as it otherwise might be under Supreme
Court Rule 10. The Tenth Circuit’s decision focused on
the direction-of-payment issue because that was the
basis for the decision below. The Third Circuit adopted
the same reasoning, but that case was reversed and
remanded to the district court for further proceedings
because summary judgment should not have been
granted on the record before the court. Finally, various
state laws may impose obligations on plasma collection
centers, and a decision, at this time, will not eliminate
disparate results.

3

See Department of Justice Frequently Asked Questions about
Service Animals and the ADA https://www.ada.gov/regs2010/serv
ice_animal_qa.html (last visited January 20, 2020).

11
CONCLUSION
The Court should deny the petition for a writ of
certiorari.
Respectfully submitted,
BRUCE J. DOUGLAS
Counsel of Record
OGLETREE, DEAKINS, NASH,
SMOAK & STEWART, P. C.
Capella Tower
225 South Sixth Street, Suite 1800
Minneapolis, MN 55402
Telephone: 612.339.1818
Facsimile: 612.339.0061
bruce.douglas@ogletree.com
Counsel for Respondent
CSL Plasma, Incorporated
January 22, 2020

